OIG Investigative Reports, Central Coast Woman Indicted in Scheme to Defraud U.S. by Submitting Application with Forged Signatures for $35 Million in Grants for After-School Programs
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
NEWS
RELEASE
For Immediate Distribution
September 3 , 2009
United States Attorney's Office
Central District of California
George S. Cardona
Aacting United States Attorney
Thom Mrozek, Public Affairs Officer
(213) 894-6947
thom.mrozek@usdoj.gov
www.usdoj.gov/usao/cac
Central Coast Woman Indicted in Scheme to Defraud U.S. by Submitting Application With Forged Signatures for $35 Million in Grants for After-School Programs
RIVERSIDE, California – A Paso Robles woman has been indicted in a scheme to defraud the United States Department of Education by submitting an application containing forged signatures for more than $35 million in grant money, some of which was awarded to – and then had to be returned by – the Indio Youth Task Force (IYTF).
A federal grand jury yesterday afternoon returned a three-count indictment charging Jean Michele Cross, 57, with fraud and related offenses for preparing and filing an application for a 21st Century Community Learning Centers Program (21st CCLC) grant on behalf of IYTF, a non-profit, community-based organization in the Coachella Valley.
The charges in the indictment stem from an application Cross filed on March 12, 2007, for a 21st CCLC grant on behalf of IYTF. The application sought annual awards of $7,131,856 for five years. The California Department of Education, which administered the 21st CCLC grant program in California, awarded the grant for approximately $6.9 million annually and mailed a $3,455,370 check to IYTF in December 2007. In April 2008, after improprieties about the grant application process surfaced, IYTF returned the check.
The 21st CCLC grant application contained several forms that required original signatures from persons involved with the administration of the grant, including the authorized executive of the applicant agency, school principals and school district superintendents. The indictment alleges that Cross altered and forged signatures and documents in the 21st CCLC application. Specifically, Cross allegedly forged the signatures of the executive director of IYTF, school principals and school district officials on the 21st CCLC application and supporting documents. She also allegedly forged and altered documents submitted in support of the application. For instance, the indictment alleges that Cross altered a document that purported to be a memorandum of understanding from Desert Sands Unified School District by adding terms the school district had not agreed to, such as stating that Desert Sands Unified School District would contribute approximately $156,445 to programs being funded by the grant. Cross is accused of similarly forging or altering memoranda from several other school districts, including the Perris Elementary School District, the Perris Union High School District and the Nuview Unified School District.
The indictment also alleges that Cross concealed a 15 percent fee she had negotiated in exchange for submitting a successful grant application.
Cross is charged with mail fraud, forging a writing to obtain money from the United States and making false statements. If convicted, Cross would face a maximum statutory penalty of 35 years in federal prison.
An indictment contains allegations that a defendant has committed a crime. Every defendant is presumed to be innocent until and unless proven guilty in court.
Cross is expected to be arraigned on the indictment in the coming weeks in United States District Court in Riverside.
The case against Cross concludes an investigation by the United States Department of Education, Office of Inspector General; the Federal Bureau of Investigation; and the Riverside County District Attorney's Office.
CONTACT: Assistant United States Attorney Jerry Behnke
(951) 276-6211
Release No. 09-111
Top
Printable view
Last Modified: 09/18/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov